IN THE SUPREME COURT OF THE UNITED STATES
BRIAN DAVID HILL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Brian David Hill, asks leave to file the accompanying Petition for
Writ of Certiorari to the United States Court of Appeals for the Fourth Circuit
without payment of costs and to proceed in forma pauperis and in support thereof
states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

Petitioner was determined to be indigent by the United States Court of
Appeals for the Fourth Circuit and counsel was appointed October 31,
2019 under 18 U.S.C. ยง 3006A.
Respectfully Submitted,
Brian David Hill
/s/ E. Ryan Kennedy__________
E. Ryan Kennedy
Counsel of Record
Robinson & McElwee, PLLC
Post Office Box 128
Clarksburg, West Virginia 26302
(304) 622-5022

